                                                    SENSITIVE BUT UNCLASSIFIED



    fA
                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General


                                                 Office of Inspections

                                                   Inspection of
                                          the Bureau of Counterterrorism

                                             Report Number ISP-I-12-32A, June 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


                              Table of Contents
Key Judgments                                          1
Context                                                3
Executive Direction                                    4
Policy and Program Implementation                      7
  Field Survey                                         7
  Bureau Reorganization                                8
  Foreign Assistance Program Management               10
  Regional Strategic Initiative                       10
  Antiterrorism Assistance Program                    12
  Countering Violent Extremism                        14
  Public Affairs                                      14
  Program and Policy Office Staffing                  14
Resource Management                                   18
  Creating an Executive Office                        18
  Executive Office Staffing                           19
  Equal Employment Opportunity                        20
  Orientation                                         20
Security                                              22
Management Controls                                   24
List of Recommendations                               26
List of Informal Recommendations                      28
Principal Officials                                   30
Abbreviations                                         31




                                     iii
                         SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Key Judgments
•   The Bureau of Counterterrorism (CT) is doing a commendable job overall in shaping and
    executing the counterterrorism policy objectives of the Department of State (Department).

•   The bureau’s leaders are highly regarded in the Department and the large interagency
    counterterrorism community for their expertise, teamwork, and policy innovation. The
    Coordinator’s and his principal deputy’s working relationship with Department principals is
    particularly strong.

•   Elevation of the Office of the Coordinator for Counterterrorism (S/CT) to a bureau with its
    own executive office promises to solve its long-standing and most pressing problem of
    inadequate management support. Staffing the executive office is the bureau’s highest
    personnel priority.

•   CT has approval to add 31 new direct-hire positions, subject to availability of funding. The
    OIG team agrees that the bureau needs additional staff, in part to replace some contractors,
    but has made recommendations on adjusting the allocation of certain new positions.

•   CT’s reorganization plan, intended to enhance collaboration between program and policy
    staff, is improving communication across directorates. The bureau now has to clarify the new
    roles of offices and individuals handling programs.

•   CT leadership has taken a number of actions to improve communication with bureau staff but
    could still strengthen engagement with units carrying out important programs that do not
    regularly require high-level attention.

•   CT is taking steps to improve management of foreign assistance programs by establishing an
    Office of Strategic Plans and Policy, hiring additional program staff, and installing an
    electronic project management system. CT needs to arrange training for all program officers
    as soon as possible. Like the rest of the Department, CT is in the process of upgrading its
    performance assessment capabilities.

•   CT and the Bureau of Diplomatic Security’s Office of Antiterrorism Assistance (DS/T/ATA)
    should improve their cooperation in managing the global Antiterrorism Assistance Program.
    Although additional staff is helping CT fulfill its responsibilities, the mechanisms of
    cooperation spelled out in a memorandum of agreement (MOA) need to be followed and
    improved.

•   With the creation of its executive office, CT should take direct control of the total funding for
    its Regional Strategic Initiative (RSI). By doing so, CT would increase its influence over the
    distribution of RSI funds now allocated to the Antiterrorism Assistance Program
    (approximately $18 million in FY 2011).

All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
                                           1
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

on areas where OIG did not identify problems that need to be corrected. A classified annex deals
with the more sensitive areas of the report. Also, part of this OIG team, along with other
inspectors, conducted a concurrent inspection of DS/T/ATA and produced a separate report.

The inspection took place in Washington, DC, between January 28 and March 26, 2012.
Ambassador Richard Hecklinger (team leader), George M. Frederick (deputy team leader),
(b) (6)




                                          2
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Context
        For decades, responsibility for counterterrorism policy in the Department resided with an
office within the Office of the Secretary: the Office of the Coordinator for Counterterrorism
(S/CT). In 2010, S/CT leadership suggested to the Secretary that, to fulfill its mission in the
interagency community and in policy formulation, the office should become a bureau. In
December 2010, the Department’s Quadrennial Diplomacy and Development Review
recommended the creation of a new bureau, the Bureau of Counterterrorism (CT), to replace the
S/CT office. The new organization, announced by Secretary Clinton on January 4, 2012, was
created to “elevate the Office of the Coordinator for Counterterrorism, expand State’s
capabilities in an issue critical to U.S. national security, and allow more effective coordination
with other agencies, including the Department of Defense, the Department of Justice, the
Department of Homeland Security, and the intelligence community.”

         CT will build on and expand S/CT’s activities in three areas. First, CT will play a key
role in the Department’s efforts to counter violent extremism, including working closely with the
Under Secretary for Public Diplomacy and Public Affairs and the new Center for Strategic
Counterterrorism Communications. Second, the bureau will strengthen the Department’s ability
to assist partner countries in building their counterterrorism capabilities. Third, it will engage in
multilateral and bilateral diplomacy to advance U.S. counterterrorism goals. CT will report
through the Under Secretary for Civilian Security, Democracy, and Human Rights for its regular
programs and business and to the Secretary, Deputy Secretary, and the Under Secretary for
Political Affairs on terrorist incidents and threats, operations, and related issues.

        The inspection took place as CT was establishing itself as a bureau and implementing a
major internal reorganization. This process entails creating an executive office to take over
management support of the new bureau and adding staff to develop new capabilities, particularly
in program management, and to provide needed reinforcement to hard-pressed units. Thus, many
of the problems identified by the OIG team are in the process of being addressed and may be
resolved by the time this report is published.




                                           3
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
        The CT front office consists of the Coordinator, a principal deputy coordinator, and three
deputy coordinators. (The titles will change to Assistant Secretary and deputy assistant
secretaries following congressional action to create another Assistant Secretary position and
Senate confirmation of the nominee.) The Coordinator has extensive experience in
counterterrorism issues both in government, as a member of the National Security Staff, and in
the think-tank community. He and the principal deputy, a former ambassador and deputy
assistant secretary, have developed a close working relationship. The Coordinator focuses
primarily on policy innovation, relations with the Department’s leadership, the interagency
process, and foreign governments. The principal deputy, while acting as the alter ego to the
Coordinator on policy and the interagency process, has primary responsibility for managing the
bureau.

       In 2010, the Coordinator led the development of a new strategic counterterrorism
program designed to stem terrorist radicalization and recruitment while providing other nations
with the capabilities to deal with terrorist threats. The Secretary and the Coordinator briefed the
President and key Cabinet officials on the strategy and secured their approval. CT has made
substantial progress in implementing this strategy, including creating a 29-country Global
Counterterrorism Forum (GCTF), and helping to create an interagency Center for Strategic
Counterterrorism Communications within the Department to coordinate governmentwide foreign
communications activities that target terrorism and violent extremism.

        The Coordinator and the principal deputy are highly regarded by Department principals
and other bureaus for their policy advice and execution and are trusted to represent the
Department in senior-level White House meetings, including those at the National Security
Council deputies level and with the President. Both are also well regarded by their interagency
counterparts, who view them as knowledgeable, cooperative, and collegial. They are seen as
strong advocates for Department views but able to work with other agencies to achieve
consensus. The OIG team also received positive feedback on the other deputy coordinators from
counterparts in Department bureaus and the interagency counterterrorism community, both for
their expertise and ability to work cooperatively to achieve common goals. Thus, in the critically
important areas of policy leadership and working relationships within the Department and in the
large interagency counterterrorism community, CT does very well despite having fewer staff
members and less resources than other agencies.

        The management challenges CT leadership faces are to provide an acceptable level of
management and administrative support for the bureau, to ensure adequate staffing, and to
improve communication and engagement between the front office and bureau staff. The biggest
(b) (5) problem in CT and its predecessor, S/CT, has been inadequate management and
administrative support, particularly for human resources management, from the Office of the
Executive Secretariat, Executive Office (S/ES-EX). This problem was also identified in the 2006
OIG inspection of S/CT (ISP-I-06-25A). The situation has not improved largely because S/ES-
EX is spread too thin to service an entity as large as CT and meet its other responsibilities. The
current CT leadership pressed for the creation of an executive office and finally accomplished it
in the context of transforming S/CT into a bureau. According to CT staff, the new executive

                                           4
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

director has already made significant improvements. She and the front office are staffing up the
executive office and working with S/ES-EX and the Bureau of Human Resources (HR) on the
transition. This process is a high priority for CT leadership and is discussed in more detail in the
Creating an Executive Office section of this report.

        CT leadership secured authorization to establish and fill 31 new positions, subject to the
availability of funds. The OIG team confirmed that certain CT units are inadequately staffed and
that the additional positions could reinforce these units and strengthen the bureau’s capabilities
in key areas. See the Program and Policy Office Staffing section of this report for further
discussion.
       (b) (5)


         CT leadership has launched a reorganization that is designed, in part, to address this
problem. As noted in the Bureau Reorganization section of this report, the reorganization carries
its own challenges. However, it has already increased communication among directorates and
provided more structure to the flow of information throughout the bureau.

        CT leadership and staff need to make further improvements in internal communication.
For example, a number of employees see the Coordinator as focused primarily on a few issues
and insufficiently engaged in some of the important but more routine bureau programs and
functions. They appreciate his talents and accomplishments but would welcome more contact
and guidance. The Coordinator has instituted a weekly all-hands meeting and a weekly meeting
with office directors. He meets with deputy coordinators daily and expects them to communicate
his priorities to their staff. The front office has broadened the distribution of information such as
the Coordinator’s schedule, a bureauwide task list, a weekly activity report, and a compilation of
cable reporting. Still, more direct engagement would be beneficial. The OIG team made several
suggestions to the Coordinator on ways he could improve engagement with staff and still
maintain his demanding schedule, and he was taking steps to do so during the inspection.

         The principal deputy is generally accessible and has an open-door policy. Although much
of his time is spent on policy issues, operations, and the interagency process, he also oversees the
management of the bureau and is leading the transition process and reorganization. Bureau
personnel were consulted on the reorganization through meetings and other mechanisms, but a
number of employees told inspectors they would have welcomed more involvement. The
reorganization has flattened the management structure by having all deputy coordinators report
directly to the Coordinator and eliminating one deputy position. The principal deputy is striving
to ensure that cross-directorate communication and coordination is improved through informal as
well as formal arrangements.

        The other deputies are respected by staff for their substantive skills and commitment to
the work of the bureau. (b)(5)(b)(6)
                                   The inspectors also found that some office directors could help
improve internal communication by bringing the concerns of their staff to the attention of the
front office.


                                           5
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 1: The Bureau of Counterterrorism should consult with
       staff to develop a plan for improving communication, including guidance and feedback,
       between the front office and the rest of the bureau.

        There are two Civil Service appointee senior advisors in CT. One is responsible for the
GCTF, and the other handles a series of issues, including counterterrorism finance. Although
both make important contributions, there is some concern in the bureau about coordination and
lines of authority. Now that the GCTF has been launched and the senior advisors are nearing the
end of their tours, it is a good time for the bureau to institutionalize the senior advisors’ functions
in the directorates and use the new permanent positions to bring any necessary expertise into the
bureau.

        CT leadership’s most enduring legacy may well be the creation of a bureau that has the
structure, staffing, procedures, management support, and facilities to support and sustain CT’s
now high-profile roles in the Department, the interagency community, and the global
counterterrorism effort.




                                            6
                               SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
        CT does a commendable job overall in the formulation and execution of counterterrorism
policy and programs. With approximately 120 employees (including contractors and detailees
from other agencies), the bureau performs policy, foreign assistance, and operational functions
along the broad spectrum of U.S. Government counterterrorism activities. The bureau works to
gain the cooperation of foreign governments and multilateral organizations as well as funds and
manages assistance programs to build their capacity to combat terrorism. CT prepares terrorist
designations that carry legal sanctions, undertakes focused public diplomacy efforts to counter
narratives that promote terrorism, funds and manages foreign assistance programs, supports
interdiction of terrorist travel, and responds to terrorism-related crises. The bureau devotes
considerable time and effort to coordinating virtually all of its work with the National Security
Staff and with large agencies such the Department of Defense, Department of Homeland
Security, Federal Bureau of Investigation, National Counterterrorism Center, and Department of
Treasury.

         Although CT has a positive record in carrying out these responsibilities, there is room for
improvement. For example, the bureau does not have the right number of people with the right
training in some offices, and it must strengthen its management of foreign assistance programs. 1
Overlapping mandates to CT and DS/T/ATA for the antiterrorism training assistance program
present challenges for management of that program. Furthermore, the bureau’s RSI is now 6
years old and due for a thorough review to ensure that it is aligned with current priorities. These
issues are discussed later in the report. The bureau is aware of these and other areas for
improvement and is addressing them.

Field Survey

       The OIG team surveyed U.S. embassies to learn their views on CT performance in
defining and implementing counterterrorism policy priorities. The survey also evaluated CT and
DS/T/ATA on program management in host countries.

        Sixty-three embassies from all regions replied to the survey. Although several embassies
suggested areas for improvement that applied to programs in their host countries, the survey
revealed no widely observed weaknesses. Average scores on a scale of 1 (poor) to 5 (excellent)
ranged from 3.6 to 4.2, with results slightly higher for program management than for policy.
There were no reported instances of waste, fraud, or mismanagement. Many embassies in
countries with antiterrorism training assistance programs considered the training to be effective
in strengthening host country capabilities and law enforcement authorities’ relations with the
embassy and the U.S. Government.




1
  The bureau manages foreign assistance funds and programs under four subaccounts of the Nonproliferation,
Antiterrorism, Demining, and Related Programs account. They are antiterrorism assistance, counterterrorism
finance, terrorist interdiction, and counterterrorism engagement.

                                               7
                                  SENSITIVE BUT UNCLASSIFIED
                                         SENSITIVE BUT UNCLASSIFIED


Bureau Reorganization
        As noted previously, CT is undergoing a major reorganization in connection with its
transition to a bureau. Its goals include improving communication and coordination through
measures such as integrating policy and program staff and creating a more efficient and
transparent flow of information, including through a new tasking and tracking system. The
reorganization also involves adding direct-hire staff, creating an executive office, eliminating
one deputy position, and securing additional and upgraded facilities.
        Under the reorganization, CT will be divided into four directorates, each led by a deputy
coordinator (see Figure 1). One directorate, led by the principal deputy, includes the executive
office and the Office of Strategic Plans and Policy (SPP). The Regional Affairs and Programs
(RAP) directorate includes two offices, each of which covers three geographic regions. The
offices in the Homeland Security and Multilateral Affairs directorate handle multilateral
organizations, terrorist designations, terrorist screening, and homeland security. The Operations
directorate is discussed in the classified annex to this report.

                                                        Coordinator for
                                                       Counterterrorism
                                                               CT




        Principal Deputy              Deputy Coordinator for           Deputy Coordinator for
                                                                                                       Deputy Coordinator for
         Coordinator for               Regional Affairs and            Homeland Security and
                                                                                                            Operations
        Counterterrorism                    Programs                     Multilateral Affairs
                                                                                                              CT/OPS
             CT/C                            CT/RAP                          CT/HSMA



          Office of Strategic Plans           Office of Asia, the             Office of Homeland
                                                                                                              Office of Operations
                 and Policy                Pacific, and the Americas                Security
                                                                                                                 CT/OPS/OPR
                 CT/C/SPP                        CT/RAP/APA                      CT/HSMA/HS



                                           Office of Africa, Europe,          Office of Multilateral
              Executive Office
                                                and Near East                         Affairs
                  CT/C/EX
                                                 CT/RAP/AEN                       CT/HSMA/M



                                                                               Office of Terrorist
                                                                                 Screening and
                                                                             Interdiction Programs
                                                                                 CT/HSMA/TSI



                                                                             Office of Designations
                                                                                 and Sanctions
                                                                                  CT/HSMA/D



                              Figure 1: CT Reorganization Chart.
(Above: The CT Coordinator is in charge of four directorates: Counterterrorism, Regional
Affairs and Programs, Homeland Security and Multilateral Affairs, and Operations. The
principal deputy coordinator for the Counterterrorism directorate oversees the Office of
Strategic Plans and Policy and the Executive Office. The deputy coordinator for the Regional
                                               8
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Affairs and Programs directorate oversees the Office of Asia, the Pacific, and the Americas and
the Office of Africa, Europe, and the Near East. The deputy coordinator for the Homeland
Security and Multilateral Affairs directorate oversees the Office of Homeland Security, the
Office of Multilateral Affairs, the Office of Terrorist Screening and Interdiction Programs, and
the Office of Designations and Sanctions. The deputy coordinator for the Operations directorate
oversees the Office of Operations.)

         Partial integration of foreign assistance program and regional affairs staff represents the
most controversial aspect of the reorganization. The plan aims to promote collaboration that will
better inform both programs and policy and resolve differences between program and regional
affairs staff members about their respective responsibilities.

         The reorganization moves some of the foreign assistance program employees from the
former program office to RAP, where they are to oversee implementation of programs in their
regions. Senior program managers and a few additional program staff members will remain in
SPP to ensure a whole-of-program perspective on planning, budgeting, and implementation.
Dividing program staff between RAP and SPP, with senior program staff retained in SPP, has
raised concern among employees in the affected offices about reporting relationships and means
of coordination. Bureau leadership has asked offices to define their objectives and commitments
and specify what they need from other offices in the bureau. CT plans to hold a series of
facilitated, off-site meetings to address these and other issues.

        CT can use this process to clarify the respective roles of each office and its staff and
ensure that the reporting relationships and coordination mechanisms are worked out. This
process could entail specifying discrete actions required at each phase of the foreign assistance
planning cycle —strategic planning, budgeting, implementation, and evaluation—and assigning
responsibility for those actions to offices and individuals. Defining responsibilities by office and
position will reduce ambiguity but will not necessarily produce the most effective structure. Only
time will tell whether the planned structure meets bureau needs or requires modification.

Recommendation 1: The Bureau of Counterterrorism should conduct an assessment of the
effectiveness of its reorganization 1 year after implementation, report its findings to bureau staff,
and make adjustments based on its findings and feedback from staff. (Action: CT)

        The OIG team sees a good case for moving responsibility for the GCTF to RAP,
reporting to that directorate’s deputy coordinator. The GCTF currently falls under a senior
advisor who reports to the Coordinator. RAP is focused on promoting U.S. strategic goals
through diplomacy with foreign governments and is configured to support the coalition building
that the GCTF entails. The directorate can also mobilize the regional CT coordinators that it
directs in the field (including the regional coordinator based in Turkey, which cochairs the GCTF
with the United States) to work with host governments on GCTF events and programs. Finally,
putting the GCTF under the deputy coordinator for regional affairs will appropriately broaden
that position’s span of control. CT has given considerable thought to this issue and can also make
a credible case for placing responsibility for the GCTF in the Homeland Security and
Multilateral Affairs directorate, which handles other multilateral organizations.


                                           9
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        Both the OIG team and some missions in the field observed a lack of accessible
information on the GCTF. CT has posted a factsheet and other materials on its intranet site and
produced meeting reports but could provide more information on its achievements, status, and
work plan going forward. The bureau is creating a GCTF Web site with information for the
public as well as password-protected information for member countries; however, there is no
intranet site to keep U.S. embassies in the loop.

       Informal Recommendation 2: The Bureau of Counterterrorism should post the Global
       Counterterrorism Forum briefing papers and reports of activities on its unclassified and
       classified intranet sites.

Foreign Assistance Program Management

         The bureau has taken steps to improve management of program funds. CT also shares
responsibility with DS/T/ATA for approximately $200 million of antiterrorism assistance
delivered to more than 60 countries in the form of training and equipment. In past years, CT
struggled to manage its foreign assistance resources, which, together with delays in the
legislative appropriations process, often led to the hasty obligation of funds at the end of the
fiscal year. The new executive office gives CT its own financial management capability and ends
reliance on S/ES-EX. CT is adding program analysts and managers as well as new project
accounting management software. The bureau’s reorganization is also designed to improve its
management of foreign assistance by improving collaboration between program and policy staff.

        Several bureau program managers, including regional counterterrorism coordinators, lack
training in program monitoring and evaluation, creating vulnerabilities in program
implementation and oversight of funds. In October 2010, the Under Secretary for Management
issued a memo titled “Department of State Program Evaluation Policy,” which instructs all
bureaus to institute a systemic evaluation and performance management system. In February
2012, the Department issued an updated evaluation policy. Not all program managers have
attended the Overview of Federal Assistance Financial Management course at the Foreign
Service Institute. Distance learning courses are available as well, and the Department’s Office of
Foreign Assistance Resources Web site contains useful information and links.

Recommendation 2: The Bureau of Counterterrorism should implement a policy that requires
all program managers and employees with program oversight responsibilities to attend the
Overview of Federal Assistance Management course (PP 425) offered by the Foreign Service
Institute. (Action: CT)

Regional Strategic Initiative

        Launched in 2006, RSI is designed to strengthen the capability and will of foreign
governments to combat terrorism through regional cooperation. CT established RSIs for eight
regions and periodically convenes meetings of bureau principals with chiefs of mission, senior
U.S. Government officials, and senior representatives of regional combatant commands to assess
threats, devise strategies and policy recommendations, and develop program initiatives. Six
regional counterterrorism coordinators—mid-level officers posted in embassies—support
implementation from the field.
                                         10
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        RSI suffered from weak execution at its inception. Since then, S/CT, and now CT, has
made substantial management improvements. Regional coordinators work with embassies to
generate projects that CT funds. Examples include specialized training for police, prosecutors,
and financial regulators. CT is encouraging regional coordinators and embassies to align
proposed projects with GCTF goals as much as possible. Funded, staffed, and operating with
established processes, RSI constitutes a substantial part of the bureau’s ongoing work.

         RSI’s regional concept remains sound and complements the GCTF. As a legacy initiative
that has evolved over several years, however, it is due for reassessment. The inspection brought
to light several issues—specified below—that merit consideration from bureau leadership,
including the relationships of RSI and the GCTF, budgeting, the RSI country groups, and
regional coordinator training and responsibilities.

       Global Counterterrorism Forum: Determine how to make effective use of the RSI
process and resources to support the GCTF.

       RSI country groupings: Review the relevance of regional country groups to threats and
prospects for collaboration; locations for regional coordinators; and the possibility of managing
one or more regional coordinator portfolios more economically from Washington, as CT has
already done with the regional coordinator for Latin America.

        Regional coordinators: Review whether to negotiate additional conditions with host
embassies, specifically support from locally employed staff or professional associates, the
balance of time spent on countries in the region, and travel funding; provide basic language
training for regional coordinators before going to post; and determine regional coordinator
program monitoring and evaluation responsibilities.

       Informal Recommendation 3: The Bureau of Counterterrorism should arrange for
       regional coordinators to take Foreign Service Institute training in managing foreign
       assistance, project monitoring and evaluation, and other training appropriate for their
       duties.

         Budgeting: Review whether RSI spending aligns with regional counterterrorism
priorities and adjust if necessary by setting regional planning levels. Review whether to
consolidate RSI and non-RSI budget lines, given that projects funded under both lines can be
indistinguishable, and whether to establish the GCTF as a separate line item in lieu of RSI.

       Informal Recommendation 4: The Bureau of Counterterrorism should reassess the
       Regional Strategic Initiative and make adjustments accordingly, including addressing
       how the initiative fits with the Global Counterterrorism Forum; the initiative’s budget
       structure; country groupings; and the terms, conditions, and training for regional
       coordinators.

       The Bureau of Resource Management allots funds to DS/T/ATA for the portion of CT’s
RSI program that is dedicated to antiterrorism assistance projects. To make use of the funds—for
example, to fund implementers other than DS/T/ATA or to send CT personnel on assessment
teams—CT must request the transfer of funds from DS. This impractical system is a vestige of a
                                          11
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

time when S/CT did not have a financial management staff. Now that CT is a bureau with its
own executive office, direct allotment of funds is both possible and practical.

Recommendation 3: The Bureau of Counterterrorism, in coordination with the Bureau of
Diplomatic Security, should request that the Bureau of Resource Management allot all Regional
Strategic Initiative funds directly to the Bureau of Counterterrorism. (Action: CT, in coordination
with DS)

Antiterrorism Assistance Program

        In operation since 1983, the Antiterrorism Assistance Program is a well-regarded
program that trains foreign law enforcement personnel in essential skills needed to combat
terrorism. DS/T/ATA, with a staff of 109, manages the program. DS/T/ATA has a unique
function in DS and operates with considerable autonomy. Within CT, one GS-14 program
manager and four newly hired action officers provide policy direction and share some
management responsibilities with DS/T/ATA.

        The division of responsibilities between CT and DS/T/ATA stems from overlapping
authorities for managing the Antiterrorism Assistance Program. A 2010 MOA between S/CT and
DS/T/ATA (replacing a 1991 agreement) assigns specific responsibilities to each bureau, but it
does not fully address these overarching, overlapping authorities. As a result, the two
organizations continue to have different perceptions of their roles. CT’s view is that it should
have overall control of the program, whereas DS/T/ATA believes the relationship to be one in
which “…S/CT is responsible for policy formulation and DS for program administration and
implementation,” as stated in the opening paragraph of the MOA.

        CT’s recent elevation from an office to a bureau presents an excellent opportunity to
correct the MOA’s shortcomings and to define more clearly the roles of CT and DS/T/ATA in
the Department’s Antiterrorism Assistance Program. Should this effort be unsuccessful, CT and
DS could seek a redelegation of authority from the Secretary.

Recommendation 4: The Bureau of Counterterrorism, in coordination with the Bureau of
Diplomatic Security and the Office of the Legal Adviser, should revise the memorandum of
agreement between the two bureaus to modify or eliminate those elements that are no longer
applicable and to delineate more clearly their respective duties and responsibilities within the
agreement’s overarching legal provisions. (Action: CT, in coordination with DS and L)

        In the meantime, there is room for improving cooperation and coordination within the
existing structure. For example, the two bureaus are not observing the MOA’s requirement for
monthly operational meetings or triannual meetings between CT and DS/T/ATA principals,
which have not been held for nearly 20 months

Recommendation 5: The Bureau of Counterterrorism, in coordination with the Bureau of
Diplomatic Security, should hold monthly and operation meetings and triannual senior-level
meetings according to the provisions of the memorandum of agreement. (Action CT, in
coordination with DS)

                                          12
                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

        There are other steps that CT and DS/T/ATA can take to improve cooperation and
coordination. DS/T/ATA holds a monthly Curriculum Oversight Committee meeting to discuss
course updates, new course development, and anticipated course revisions. This committee could
serve as an important communications link with CT as well as among the DS/T/ATA divisions.
The decisions the committee makes also define the future of DS/T/ATA course development.
However, CT attendance at these meetings is sporadic at best. The DS/T/ATA inspection report
contains a recommendation regarding attendance by that office’s staff. 2

        Informal Recommendation 5: The Bureau of Counterterrorism should incorporate
        mandatory attendance at Curriculum Oversight Committee meetings into the work
        requirements statements and performance elements of its program managers who work
        with the Bureau of Diplomatic Security’s Office of Antiterrorism Assistance.

        CT and DS/T/ATA also do not coordinate effectively on the congressional notification
process, which is required to allocate Antiterrorism Assistance Program funds. This problem
stems from lack of clarity on the congressional notification process and inadequate feedback on
the status of pending notifications. The absence of an agreed-upon procedure impedes the
efficient distribution of funds and delays program implementation.

Recommendation 6: The Bureau of Counterterrorism, in coordination with the Bureau of
Diplomatic Security, should form a joint working group to streamline and expedite the
congressional notification process for antiterrorism training funding. (Action: CT, in
coordination with DS)

       The planned increase in CT program staff will help the bureau fulfill its oversight role to
provide strategic direction to ATA programs and shape the annual budget request. Additionally,
achieving greater continuity in DS/T/ATA leadership, as recommended in the concurrent
DS/T/ATA inspection report, together with adding CT staff with antiterrorism assistance-related
responsibilities, will facilitate improved cooperation and communication between the two
bureaus. In light of CT’s increased staffing and creation of an executive office, this report
recommends the allotment of RSI antiterrorism assistance funds directly from the Bureau of
Resource Management to CT (see Recommendation 3). Whether CT should be allotted
additional antiterrorism assistance-related funding as it develops the capacity to handle it is a
question that can be resolved in the context of clarifying the respective responsibilities of CT and
DS/T/ATA (see Recommendation 4 in this report).

        Given the strained relationship between CT and DS/T/ATA, and DS/T/ATA’s high
degree of autonomy within DS, the OIG team considered alternative organizational
arrangements, including giving CT full control of the program. However, because information
from the field survey of embassies indicates that the program is performing well (though it needs
some improvements), the DS connection ensures the participation of regional security officers,
and CT is not set up to take over the program, the OIG team concluded that a radical change in
structure is not warranted at this time.


2
 OIG report ISP-I-12-31 (June 2012), Inspection of the Bureau of Diplomatic Security, Office of Antiterrorism
Assistance, Informal Recommendation 6.
                                              13
                                  SENSITIVE BUT UNCLASSIFIED
                                        SENSITIVE BUT UNCLASSIFIED


Countering Violent Extremism

        The Coordinator has made countering violent extremism a principal objective of the
bureau and has created a team within CT that is devoted to this effort. Working through
embassies, local partners abroad, and the interagency community, the team has successfully
created a broad coalition of partners working to curtail recruitment into terrorist organizations.
The bureau has issued informational reports and cables to describe its view of what constitutes
countering violent extremism programming. The Coordinator has said that “the primary goal of
countering violent extremism is to stop those most at risk of radicalization from becoming
terrorists. Its tools are noncoercive and include social programs, counterideology initiatives, and
working with civil society to delegitimize the al-Qaeda narrative and, where possible, provide
positive alternative narratives.”

       In the field, countering violent extremism programming proposals vary. Some embassies
have indicated confusion as to what constitutes such programming and how it differs from
development assistance programming. Clarity on the Department’s policy and criteria for
countering violent extremism programming is vital to achieving the team’s objectives.

            Informal Recommendation 6: The Bureau of Counterterrorism should reissue its
            guidance on the goals and nature of approved countering violent extremism programming
            annually.

Public Affairs

        The bureau public affairs officer reports directly to the principal deputy coordinator. At
the time of the inspection, her duties included preparing press guidance, drafting public
addresses, and clearing public diplomacy documents submitted by other bureaus. Additionally,
the public affairs officer is responsible for organizing and editing the congressionally mandated
annual country report on terrorism. 3 This document is respected within the counterterrorism
community and is useful to embassies in their conversations with host countries and partners.
The public affairs officer manages too large a portfolio, and the bureau plans to provide her with
extra help.

       The most recent report to Congress, due on April 30, 2011, was issued in August 2011
because it remained in the front office awaiting clearance. This was not the first time the report
was late. Reporting posts and regional bureaus complied with deadlines set by CT. The OIG
inspectors could find no substantive reason for the 4-month delay in releasing the report.

Recommendation 7: The Bureau of Counterterrorism should comply with the deadline
established by law for release of the country report on terrorism. (Action: CT)

Program and Policy Office Staffing

       The bureau plans to add 28 new direct-hire positions (among 31 total positions) to
program and policy offices. (The remaining three positions are for the executive office.) A still

3
    Available at http://www.state.gov/j/ct/rls/crt/.
                                                    14
                                        SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

undetermined number will replace contractors. Properly deployed, additional program and policy
staff will strengthen the bureau’s capacity for timely, efficient, and effective program
management. The OIG team observed imbalances between current or prospective workload and
staffing in several offices. As discussed below, the team recommends some adjustments to the
bureau’s proposed timing and allocation of new positions to meet the most urgent priorities.

Office of Terrorist Screening and Interdiction Programs

        The Office of Terrorist Screening and Interdiction Programs negotiates terrorist
information-sharing agreements with visa waiver program partner countries, pursuant to
Homeland Security Presidential Directive 6. The office is under a tight deadline to negotiate 36
agreements by summer 2012 as a condition for countries’ continued eligibility for the Visa
Waiver Program. In addition, in January 2012 the President proposed expanding the program,
thereby increasing the number of information-sharing arrangements that must be negotiated. As a
part of the bureau reorganization, the Office of Terrorist Screening and Interdiction Programs
will take over managing the Terrorist Interdiction Program’s Personal Identification Secure
Comparison and Evaluation System, a computer database provided to selected foreign
governments. The office is in the process of filling two positions but likely needs more. The OIG
team agrees that the office is understaffed.

Recommendation 8: The Bureau of Counterterrorism should allocate at least one more analyst
position to the Office of Terrorist Screening and Interdiction Programs in 2012 from the list of
already approved direct-hire positions. (Action: CT)

Office of Designations and Sanctions

        The Office of Designations and Sanctions prepares recommendations to the Secretary for
designations that carry legal sanctions against state sponsors of terrorism, foreign terrorist
organizations, entities and individuals, and countries not fully cooperating with U.S.
counterterrorism efforts. In FY 2011, the office processed the highest number of new terrorist
designations ever under existing authorities(b) (5)
           CT management recognizes the importance of this work, as the designations trigger
U.S. sanctions that then facilitate international sanctions through the United Nations. The office
currently has six employees, including five Civil Service staff members and one part-time
employee. Under the reorganization plan, CT proposes adding four new positions in FYs 2013
and 2014. The office has difficulty managing its workload at current staffing levels.

Recommendation 9: The Bureau of Counterterrorism should fill the positions proposed for the
Office of Designations and Sanctions in FYs 2012 and 2013. (Action: CT)

Office of Strategic Plans and Policy

        SPP’s Counterterrorism Finance unit engages in the crucial work of building foreign
governments’ capacities to detect and cut off funding to terrorists. The unit manages an annual
assistance budget of approximately $20 million, provided to offices within the Departments of
Homeland Security, Justice, and Treasury, as well as the Federal Bureau of Investigation and the
Federal Deposit Insurance Corporation. In turn, these agencies furnish technical assistance to
                                         15
                             SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

foreign governments. In FY 2011, the Counterterrorism Finance unit funded training for
approximately 2,000 persons in 29 countries.

        CT and the Bureau of International Narcotics and Law Enforcement Affairs cochair the
interagency terrorist finance working group. This group coordinates training and technical
assistance provided to countries judged as vulnerable to terrorist financing. Currently, agencies
represented on the working group provide assistance to 44 countries in the form of resident
advisors, information technology equipment, law enforcement and financial intelligence
development programs, and specialized training in financial investigative techniques. The
interagency terrorist finance working group, which meets monthly, is an effective mechanism for
coordinating these programs. The Counterterrorism Finance unit oversees the interagency
financial services assessment teams (FSAT), which conduct field assessments to determine what
types of assistance are needed in countries that the working group has identified as priorities.

        The Counterterrorism Finance unit is understaffed. A GS-14 Civil Service unit chief
manages a staff of four full-time contractors and one part-time contractor. The number of
countries that the interagency terrorist finance working group has identified as priorities has
grown by 50 percent in the past 3 years, with a related increase in the backlog of countries on the
roster for FSAT assessments. Because contractors are not U.S. Government employees, they
cannot lead FSAT teams. As part of the CT reorganization, two Counterterrorism Finance unit
contractors will move to RAP. The bureau plans to use a new position for a Civil Service deputy
and, if necessary, retain a contractor position. The unit is also engaging the Bureau of
International Narcotics and Law Enforcement Affairs to increase the latter’s capacity to colead
FSAT trips. The Counterterrorism Finance unit nonetheless needs sufficient staff, particularly
direct-hire employees, to carry out its responsibilities.

           Informal Recommendation 7: The Bureau of Counterterrorism should continue to
           assess and meet staffing requirements for the Counterterrorist Finance unit.

Regional Affairs and Programs Directorate

         On a day-to-day basis, CT leadership turns to RAP to draft the majority of its briefing
materials for interagency meetings and bureau and Department principals’ travel. The directorate
also oversees the work of five (soon to be six) regional coordinators based in the field 4 and
participates in the bureauwide review of project proposals funded under the RSI. Officers travel
to their regions in support of bureau principals’ travel and to assess programs and conditions on
the ground. Under the reorganization, the directorate will have two offices rather than one. The
current office director is an excellent manager who has the confidence of staff and bureau
leadership.

        The OIG team identified two staffing issues in RAP that deserve bureau management
review. CT’s staffing plan for RAP calls for five additional Civil Service positions and one
additional Foreign Service position between FYs 2012 and 2014. The staffing plan identifies all
of these positions for work on counterterrorism assistance programs. Until the bureau decides
how to divide program responsibilities between RAP and SPP, it is difficult to estimate RAP’s

4
    Ankara, Athens, Kuala Lumpur, Nairobi, and New Delhi, with a new position in Algiers effective in 2012.
                                                16
                                    SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

workload. In addition, the bureau has not decided whether these new positions will replace or
add to contract staff transferred from SPP.

Recommendation 10: The Bureau of Counterterrorism should defer establishing new proposed
direct-hire positions for the Regional Affairs and Programs directorate pending clarification of
the roles of the directorate and the Office of Strategic Plans and Policy in managing programs,
justification of total (including contractor) directorate requirements, and consideration of
competing priorities in the bureau. (Action: CT)

        Two FS-01 positions in the office appear to be overgraded. Their portfolios are virtually
identical in terms of content and responsibilities to those of Civil Service officers with lower
comparable grades.

       Informal Recommendation 8: The Bureau of Counterterrorism should review the
       position descriptions of the two FS-01 positions in the Regional Affairs and Programs
       directorate and, if appropriate, request their reclassification.




                                         17
                             SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Resource Management
                                                                         Budget
              Staffing
                                                                      (in millions)
                                                                                                       FY 2011
Foreign Service                     15 Diplomatic and Consular Programs                                   $12.0
Civil Service                       55 Nonproliferation, Antiterrorism, Demining, and                   $274.5*
                                       Related Programs
Contractors                         30 Economic Support Funds                                                $2.0
Detailees                           18
When Actually Employed               1
Total staffing                     119 Total budget                                                       $288.5
*Of this amount, $200 million is allotted by the Department directly to DS ($137 million for DS/T/ATA bilateral
programs, $45 million for DS/T/ATA support and administration, and $18 million for RSI programs that are
implemented by DS/T/ATA or other agencies). Funds allotted directly to CT amount to $74.5 million.

Creating an Executive Office

        As part of the Office of the Secretary, S/CT received management support services from
S/ES-EX. As far back as OIG’s 2006 inspection, S/ES-EX had been unable to meet S/CT needs
in a timely and efficient fashion. With CT’s establishment as a bureau, all management and
administrative services for which S/ES-EX has been responsible are devolving to CT’s new
executive office (CT/EX). The transformation of S/CT’s skeletal administrative unit to CT’s
stand-alone executive office has been a complex and difficult process. Multiple bureaus and
offices are working to complete more than 100 actions needed to officially create the new
bureau. Some actions require implementing organizational changes and processes that will take
months to complete. The majority of actions fall to HR and the Bureau of Resource
Management. CT managers have been especially anxious about how long it is taking HR’s
Shared Services Provider (HRSP) to classify and fill vacant and new positions.

         Officials of each bureau participating in the transition, including CT, believe it would
have been more efficient and less exasperating had the process begun earlier. Ideally, creating a
functional executive office would have been the first priority, as this office is responsible for
implementing the transition and reorganization. The principal deputy coordinator advocated for
an executive office in 2009, prior to the decision to make S/CT a bureau. In 2011, the Under
Secretary for Management approved the creation of CT/EX. An executive director was hired in
September 2011. At the time of the inspection, the executive office was woefully understaffed
and did not have the resources to carry out the transition while maintaining daily operations. The
most urgent need is for a human resources officer. CT recently hired an experienced contractor to
assist the office’s new human resources specialist, and the reorganization plan calls for the
creation of a human resources officer position before the end of FY 2012.

        Informal Recommendation 9: The Bureau of Counterterrorism should establish and
        fill the human resources position as quickly as possible and by no later than the end of
        FY 2012.


                                              18
                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        Following the transition, CT will become a client of HRSP, which, as stated earlier, will
perform position classification, staffing, and recruitment functions for CT. HRSP and CT/EX are
negotiating a service level agreement that will outline a phased approach for the transfer of these
responsibilities from S/ES-EX. The success of the new partnership will depend on the ability of
CT/EX’s human resources unit to liaise effectively with HRSP and perform routine human
resources actions and address employee questions. Should HRSP not meet the terms of the
service level agreement, CT has the option of requesting a different provider.

        The transfer of all functions from S/ES-EX to CT/EX should be completed by fall 2012.
Staff from other bureaus and CT/EX staff hold regular meetings, and although coordination
appears good, progress is slow. S/ES-EX will continue to support CT for functions CT/EX
cannot yet perform.

        The responsibility to carry out the transition and reorganization without adequate
resources has created an enormous burden on the executive director. CT leadership and
employees commended her efforts and accomplishments. After years of frustration, CT
employees are delighted to have their own executive office staffed by a competent director.
However, employees now expect, overnight, to see excellent customer service and the resolution
of lingering issues, and one of CT leadership’s challenges will be to manage these unrealistic
expectations. The executive director is inundated with requests for assistance. The principal
deputy coordinator and executive director are prioritizing the CT/EX workload and asking
employees to understand the need for patience.

Executive Office Staffing

        As CT/EX takes on new responsibilities and staff, office workload and portfolios will
need realignment to increase efficiency and meet bureau needs. The executive director has begun
this effort. She will need to ensure that the staff is carrying out all new operations in accordance
with Foreign Affairs Manual (FAM) and regulatory requirements. For example, currently there is
only one direct-hire employee in the budget section; the other employees are contractors. CT’s
first-ever budget officer, a direct-hire employee, is arriving shortly. One of her initial tasks will
be to assess the proper mix of direct-hire and contractor staff. When CT/EX assumes all financial
management functions from S/ES-EX, there will be some functions and transactions, such as
obligating funds, that contractors cannot perform. The bureau plans to establish and fill a new
position for a direct-hire budget analyst by the end of FY 2012.

Providing Bureauwide Training

        Some managers and supervisors have little or no experience in their roles. Some are first-
time supervisors or employees who are managers due to their subject-matter or technical
expertise. They have little knowledge of personnel management responsibilities and Department
and governmentwide regulations. (b) (5)                                               (b) (5)
(b) (5)




                                                                At the urging of the inspectors,
                                          19
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

managers contacted the Department’s Office of Employee Relations for guidance; the
supervisors did not know this resource was available.

       Informal Recommendation 10: The Bureau of Counterterrorism should implement a
       policy requiring that all managers and supervisors attend the Department of State’s
       mandatory leadership skills seminars as well as complementary personnel management
       classes at the Foreign Service Institute.

        Given the training deficits identified in this report, the OIG team suggested that each
employee have an individual development plan. CT management agreed that this would be a
priority once CT has sufficient human resources staff to designate a training officer.

Equal Employment Opportunity

        As a newly established bureau, CT does not yet have an Equal Employment Opportunity
(EEO) program. The executive director plans to establish a program and ensure that there is at
least one trained EEO counselor in the bureau and that information about the EEO program,
including the name of the counselor, is posted prominently throughout the bureau. CT leadership
has not publicized its commitment to EEO principles and ensured that all managers take the
Department’s EEO and diversity training classes. The Office of Civil Rights can assist CT in
creating an EEO program and can conduct briefings for managers and employees.

Recommendation 11: The Bureau of Counterterrorism, in coordination with the Office of Civil
Rights, should establish an Equal Employment Opportunity program and designate and provide
training for at least one employee as counselor. (Action: CT, in coordination with S/OCR)

Orientation

         Many employees stated that CT’s orientation program for new employees, including
contractors, is not comprehensive in that it does not provide information about the bureau and
their individual jobs at the start of their assignments or about Department operations for detailees
from other agencies and new hires. Although the CT orientation handbook is useful, employees
suggested that new staff be introduced to all division directors, receive a briefing on the foreign
affairs budget process, and participate in informal mentoring. Orientation and mentoring
programs shorten the time it takes employees to learn their jobs and improve performance.

       Informal Recommendation 11: The Bureau of Counterterrorism should enhance its
       orientation program for new employees, especially those coming from outside the
       Department of State.

Information Technology

       At the time of the inspection, S/ES-EX was providing information technology services.
CT/EX and the S/ES-EX information technology division have a solid plan to transfer
information technology responsibilities to CT and the Department’s Bureau of Information
Resource Management. Officials in both bureaus will monitor the transition to ensure it meets
CT’s requirements.
                                          20
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

       Very few CT employees know who the bureau’s information systems security officer is.
As part of the transition, the current information systems security officer (in S/ES-EX) will be
replaced by an employee within CT. No matter who fills this position, the OIG team
recommends a more proactive role regarding information systems security duties.

       Informal Recommendation 12: The Bureau of Counterterrorism should provide its
       employees with the name of and contact information for the bureau’s information
       systems security officer.




                                         21
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Security
        A DS-provided Civil Service bureau security officer effectively manages the CT security
program. She is responsible for developing, inspecting, and advising on procedures and controls
for safeguarding classified and administratively controlled information and for enforcing all
associated security regulations. The bureau has two newly assigned primary unit security officers
for two of its office suites. Confirmation of unit security officers for two other office suites is
pending. The bureau security officer has developed a comprehensive notebook to assist the unit
security officers in carrying out their duties.

        During this inspection, several major security responsibilities were in transition and still
under the purview of S/ES-EX, including the Top Secret document inventory. The Office of the
Secretary and CT are in the process of reviewing the inventory to determine how control of CT’s
Top Secret documents should be shifted from the Office of the Secretary to CT. Upon separation
of the Top Secret holdings, CT will be responsible for assigning a primary and alternate Top
Secret control officer, producing a new inventory, and submitting the Top Secret inventory
control form (OF-123) to DS. In addition, CT does not have a bureau emergency action plan and
currently follows the Office of the Secretary’s emergency evacuation procedures. The Bureau of
Administration assists bureaus in developing, maintaining, and exercising their emergency action
plans.

         CT and the Office of the Secretary are also in the process of establishing property
accountability and control for General Services Administration-approved containers used to store
classified material, based on each bureau’s needs. CT will change combinations and adhere to
other classified storage requirements upon completion of the property transfer.

Security Awareness Training

        In accordance with 12 FAM 564.2, all Department bureaus must provide, at a minimum,
annual security refresher training for personnel having continued access to classified
information. All CT personnel will receive the training in the near future. The bureau security
officer has exceeded this requirement by assembling a comprehensive folder that is distributed to
attendees. The folder contains security-related documents that employees should have on hand,
including information on security compliance and closing hours security checklists; pertinent 12
FAM security-related citations, including classification management and Top Secret storage
accountability; and media and equipment labeling requirements. Also enclosed are Department
notices, forms, pamphlets, and quick reference guides.

Information Security Incident

       Since its inception as a bureau in January 2012, CT has had one information security
incident involving the inadvertent introduction of a classified document onto the unclassified
system. The bureau security officer and DS officials are handling adjudication of this incident
properly.



                                          22
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Annual Purge of Classified and Sensitive But Unclassified Hardcopy Material

       CT does not currently have a policy for reviewing and purging unneeded Secret and
below classified and Sensitive But Unclassified records. Accumulation of unneeded hard-copy
documents and correspondence can result in an inadvertent compromise of national security
information and is not good security practice. In accordance with 5 FAM 433 a. and e.,
Department offices must develop an active and continual retirement program to identify records
for immediate disposal.

       Informal Recommendation 13: The Bureau of Counterterrorism should dedicate time to
       allow all employees to review and identify classified and Sensitive But Unclassified
       material in their holdings for destruction.




                                        23
                            SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


Management Controls
        As part of an independent bureau, CT management will be responsible for implementing
and reporting on the bureau’s management controls. Until now, this has been the responsibility
of S/ES-EX. The Coordinator will now be required to submit to the Secretary the annual
management control statement of assurance as mandated by the Federal Managers’ Financial
Integrity Act. 5 Although the principal deputy coordinator and executive director acknowledge
that management controls need to be strengthened, the bureau has yet to designate a management
controls officer per 2 FAM 022.8.

Recommendation 12: The Bureau of Counterterrorism should designate a management controls
coordinator in accordance with Department of State regulations. (Action: CT)

        CT funds programs via four acquisition vehicles: interagency agreements, grants,
contracts, and direct transfers to posts. The vast majority of funds are spent via interagency
agreements with seven Federal agencies. In FY 2011, the interagency agreements totaled
approximately $65 million. CT awards grants (approximately $5.1 million for FY 2011) to
multilateral organizations, such as the Organization of American States and components of the
United Nations. CT also awards contracts for the services of 30 contractor employees, who
constitute one-third of CT’s workforce.

        Accountability and controls for grants are inadequate. A single budget specialist in the
executive office is designated as the grants program manager, grants officer’s representative, and
grants officer, with a warrant up to $200,000. Having the same person perform all these duties is
a clear violation of internal controls and separation of duties. In addition, grants officer’s
representative duties are the purview of managers who oversee program implementation. Given
the relatively small number of CT grants and the fact that most are for more than $200,000, there
is no need for CT to have a grants officer.

           Informal Recommendation 14: The Bureau of Counterterrorism should have the
           Bureau of Administration, Office of Acquisitions Management, continue performing all
           grants officer functions.

        The OIG team had difficulty locating documents due to the lack of a uniform filing
system and the disorganized and incomplete state of many files. Although the Bureau of
Administration maintains the Department’s official files, other bureaus maintain their own files
so that program managers and financial management staff can carry out their roles and
responsibilities.

           Informal Recommendation 15: The Bureau of Counterterrorism should implement an
           organized and uniform filing system for grants awards so that all files contain complete
           documentation.

      There is no governmentwide template for drafting interagency agreements, and the
Department’s Office of the Procurement Executive has not developed a model for such
5
    31 U.S.C. 3512.
                                             24
                                 SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

agreements. Because interagency agreements are considered internal bureau actions rather than
Department actions, they are not reviewed by the Office of Acquisitions Management. The OIG
team reviewed a sample of agreements and found that the level of detail varied widely. The
Office of the Procurement Executive encourages bureaus to write interagency agreements with
the specificity of contracts, and the OIG teams concurs with this approach.

         S/ES-EX currently acts as CT’s contracting officer’s representative. CT will assume
acquisition responsibilities upon completion of the transition. There is only one certified
contracting officer’s representative in CT who is performing this function. The executive director
is a certified contracting officer’s representative but cannot assume those duties until the
transition workload decreases. The OIG team, as well as the Office of Acquisitions Management
and the Office of the Procurement Executive, believe that each bureau requires more than one
grants officer’s representative and contracting officer’s representative to manage the workload.

       Informal Recommendation 16: The Bureau of Counterterrorism should determine how
       many grants officer’s representatives and contracting officer’s representatives are
       necessary to achieve effective oversight of and accountability and compliance with
       acquisition laws and regulations.

        Only three employees, two contracting officer’s representatives and one grants officer’s
representative mentioned earlier, have the training and certification required to perform those
functions. In January 2012, the Office of Management and Budget issued a policy revising
competency requirements for contracting officer’s representatives. Requirements for grants
officer’s representatives are documented in Department Grants Policy Directive 16, Revision 2
(September 2010) and 14 FAH-2 H-140, December 2011.

Recommendation 13: The Bureau of Counterterrorism should provide all employees involved
in acquisition management with the required training and certifications as outlined in Department
of State guidelines. (Action: CT)

       The travel, purchase card, and asset management functions have not yet transferred from
S/ES-EX; therefore, the OIG team did not review them. S/ES-EX and CT/EX staff are
coordinating on the transition of these functions.




                                         25
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of Counterterrorism should conduct an assessment of the
effectiveness of its reorganization 1 year after implementation, report its findings to bureau staff,
and make adjustments based on its findings and feedback from staff. (Action: CT)

Recommendation 2: The Bureau of Counterterrorism should implement a policy that requires
all program managers and employees with program oversight responsibilities to attend the
Overview of Federal Assistance Management course (PP 425) offered by the Foreign Service
Institute. (Action: CT)

Recommendation 3: The Bureau of Counterterrorism, in coordination with the Bureau of
Diplomatic Security, should request that the Bureau of Resource Management allot all Regional
Strategic Initiative funds directly to the Bureau of Counterterrorism. (Action: CT, in coordination
with DS)

Recommendation 4: The Bureau of Counterterrorism, in coordination with the Bureau of
Diplomatic Security and the Office of the Legal Adviser, should revise the memorandum of
agreement between the two bureaus to modify or eliminate those elements that are no longer
applicable and to delineate more clearly their respective duties and responsibilities within the
agreement’s overarching legal provisions. (Action: CT, in coordination with DS and L)

Recommendation 5: The Bureau of Counterterrorism, in coordination with the Bureau of
Diplomatic Security, should hold monthly and operation meetings and triannual senior-level
meetings according to the provisions of the memorandum of agreement. (Action CT, in
coordination with DS)

Recommendation 6: The Bureau of Counterterrorism, in coordination with the Bureau of
Diplomatic Security, should form a joint working group to streamline and expedite the
congressional notification process for antiterrorism training funding. (Action: CT, in
coordination with DS)

Recommendation 7: The Bureau of Counterterrorism should comply with the deadline
established by law for release of the country report on terrorism. (Action: CT)

Recommendation 8: The Bureau of Counterterrorism should allocate at least one more analyst
position to the Office of Terrorist Screening and Interdiction Programs in 2012 from the list of
already approved direct-hire positions. (Action: CT)

Recommendation 9: The Bureau of Counterterrorism should fill the positions proposed for the
Office of Designations and Sanctions in FYs 2012 and 2013. (Action: CT)

Recommendation 10: The Bureau of Counterterrorism should defer establishing new proposed
direct-hire positions for the Regional Affairs and Programs directorate pending clarification of
the roles of the directorate and the Office of Strategic Plans and Policy in managing programs,
justification of total (including contractor) directorate requirements, and consideration of
competing priorities in the bureau. (Action: CT)

                                          26
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 11: The Bureau of Counterterrorism, in coordination with the Office of
Civil Rights, should establish an Equal Employment Opportunity program and designate and
provide training for at least one employee as counselor. (Action: CT, in coordination with
S/OCR)

Recommendation 12: The Bureau of Counterterrorism should designate a management
controls coordinator in accordance with Department of State regulations. (Action: CT)

Recommendation 13: The Bureau of Counterterrorism should provide all employees involved
in acquisition management with the required training and certifications as outlined in Department
of State guidelines. (Action: CT)




                                         27
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Bureau of Counterterrorism should consult with staff to
develop a plan for improving communication, including guidance and feedback, between the
front office and the rest of the bureau.

Informal Recommendation 2: The Bureau of Counterterrorism should post the Global
Counterterrorism Forum briefing papers and reports of activities on its unclassified and classified
intranet sites.

Informal Recommendation 3: The Bureau of Counterterrorism should arrange for regional
coordinators to take Foreign Service Institute training in managing foreign assistance, project
monitoring and evaluation, and other training appropriate for their duties.

Informal Recommendation 4: The Bureau of Counterterrorism should reassess the Regional
Strategic Initiative and make adjustments accordingly, including addressing how the initiative
fits with the Global Counterterrorism Forum; the initiative’s budget structure; country groupings;
and the terms, conditions, and training for regional coordinators.

Informal Recommendation 5: The Bureau of Counterterrorism should incorporate mandatory
attendance at Curriculum Oversight Committee meetings into the work requirements statements
and performance elements of its program managers who work with the Bureau of Diplomatic
Security’s Office of Antiterrorism Assistance.

Informal Recommendation 6: The Bureau of Counterterrorism should reissue its guidance on
the goals and nature of approved countering violent extremism programming annually.

Informal Recommendation 7: The Bureau of Counterterrorism should continue to assess and
meet staffing requirements for the Counterterrorist Finance unit.

Informal Recommendation 8: The Bureau of Counterterrorism should review the position
descriptions of the two FS-01 positions in the Regional Affairs and Programs directorate and, if
appropriate, request their reclassification.

Informal Recommendation 9: The Bureau of Counterterrorism should establish and fill the
human resources position as quickly as possible and by no later than the end of FY 2012.

Informal Recommendation 10: The Bureau of Counterterrorism should implement a policy
requiring that all managers and supervisors attend the Department of State’s mandatory
leadership skills seminars as well as complementary personnel management classes at the
Foreign Service Institute.

                                          28
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 11: The Bureau of Counterterrorism should enhance its orientation
program for new employees, especially those coming from outside the Department of State.

Informal Recommendation 12: The Bureau of Counterterrorism should provide its employees
with the name of and contact information for the bureau’s information systems security officer.

Informal Recommendation 13: The Bureau of Counterterrorism should dedicate time to allow
all employees to review and identify classified and Sensitive But Unclassified material in their
holdings for destruction.

Informal Recommendation 14: The Bureau of Counterterrorism should have the Bureau of
Administration, Office of Acquisitions Management, continue performing all grants officer
functions.

Informal Recommendation 15: The Bureau of Counterterrorism should implement an
organized and uniform filing system for grants awards so that all files contain complete
documentation.

Informal Recommendation 16: The Bureau of Counterterrorism should determine how many
grants officer’s representatives and contracting officer’s representatives are necessary to achieve
effective oversight of and accountability and compliance with acquisition laws and regulations.




                                          29
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                      Name     Arrival Date
Coordinator                                                 Daniel Benjamin           05/09
Principal Deputy Coordinator                                Robert F. Godec           09/09
Deputy Coordinator for Regional Affairs and Programs        Sharon Villarosa          09/08
Deputy Coordinator for Homeland Security and Multilateral
Affairs                                                     Ann Witkowsky            12/09
Deputy Coordinator for Operations                           Mark Thompson            06/06
Executive Director                                           Carmen Cantor           09/11




                                       30
                           SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
CT              Bureau of Counterterrorism
CT/EX           Bureau of Counterterrorism, Executive Office
Department      U.S. Department of State
DS              Bureau of Diplomatic Security
DS/T/ATA        Bureau of Diplomatic Security, Office of Antiterrorism Assistance
EEO             Equal Employment Opportunity
FAM             Foreign Affairs Manual
FSAT            Financial services assessment teams
GCTF            Global Counterterrorism Forum
HR              Bureau of Human Resources
HRSP            Bureau of Human Resources, Shared Services Provider
MOA             Memorandum of agreement
RAP             Directorate of Regional Affairs and Programs
RSI             Regional Strategic Initiative
S/CT            Office of the Coordinator for Counterterrorism
S/ES-EX         Office of the Executive Secretariat, Executive Office
SPP             Office of Strategic Plans and Policy




                            31
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
